Audit
Report
   AUDIT OF MAJOR DEFENSE ACQUISITION PROGRAMS CYCLE TIME



Report No. D-2002-032                       December 28, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN) 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil: or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
GPRA                    Government Performance and Results Act
MDAP                    Major Defense Acquisition Program
SAR                     Selected Acquisition Report
USD (AT&L)              Under Secretary of Defense for Acquisition, Technology, and
                          Logistics
                       Office of the Inspector General, DoD
Report No. D-2002-032                                           December 28, 2001
 (Project No. D2002AB-0066)

        Audit of Major Defense Acquisition Programs Cycle Time

                               Executive Summary

Introduction. The Government Performance and Results Act (GPRA) of 1993, Public
Law 103-62, initiated program performance reform with a series of pilot projects in
setting program goals, measuring program performance against those goals, and
reporting publicly on progress achieved. This report is one in a series resulting from
our audits of GPRA goals, and discusses the DoD GPRA Performance Measure 2.4.2
for FY 2000, Major Defense Acquisition Program Cycle Time (MDAP). DoD
established the objective of delivering new MDAPs to the field in 25 percent less time
than programs initiated prior to 1992. MDAPs must either be designated by the Under
Secretary of Defense for Acquisition, and Technology USD (A&T) as a major defense
acquisition program, or MDAPs can be determined by USD (A&T) as a program that
requires a total expenditure of $365 million in FY 2000 constant dollars for research,
development, test, and evaluation or more than $2.190 billion in FY 2000 constant
dollars for procurement. The cycle time goal is measured by the average monthly
elapsed time, from the start of a program to initial operational capability, for all
MDAPs in development during a specific calendar year. DoD reported that it met its
FY 2000 goal and reduced the average cycle times by 25 percent, that is, to less than
99 months, from the historical average of 132 months.

Objectives. The overall objective was to evaluate the MDAP cycle time for tracking
performance under GPRA as indicated in the FY 2000 Annual Report of the Secretary
of Defense. Specifically, we assessed whether the process and factors, used to establish
the metric goal of MDAP cycle time, were valid. See Appendix A for a discussion of
the audit scope, methodology, and prior coverage.

Results. The database used to calculate MDAP acquisition cycle time for inclusion in
the FY 2000 Annual Report of the Secretary of Defense to the President and the
Congress, was not accurate or complete. Of the 48 MDAPs reviewed, data for
28 programs was incorrect. We also identified three programs that were not included
in the database. As a result of our findings, USD (AT&L) has contracted for the
complete verification and reconciliation of any omissions and inconsistencies in the
database. As of December 2001, USD (AT&L) estimated that it will complete the
verification and reconciliation of the database by February 2002.
Summary of Recommendation. We recommend that the Under Secretary of Defense
for Acquisition, Technology, and Logistics establish a quality control process to
periodically review the MDAP cycle time database for accurate and complete
information.

Management Comments. We provided a draft of this report to The Under Secretary
of Defense for Acquisition, Technology, and Logistics for comments. Comments were
not received. Therefore, we request the Under Secretary of Defense for Acquisition,
Technology, and Logistics provide comments by January 28, 2002.




                                         ii
Table of Contents

Executive Summary                                                       i

Introduction
     Background                                                         1
     Objectives                                                         1

Finding
     Major Defense Acquisition Program Cycle Time                      2

Appendixes
     A. Audit Process
         Scope                                                          6
         Methodology                                                    6
         Prior Coverage                                                 7
     B. Programs Omitted From Acquisition, Technology,
          and Logistics Database                                        8
     C. Programs with To Be Determined as Initial
          Operational Capability Date                                  9
     D. Summary of Differences Between the Under Secretary of
          Defense for Acquisition Technology, and Logistics Database
          and the Selected Acquisition Report                          10
     E. Report Distribution                                            13
Background
     The Government Performance and Results Act of 1993 (Public Law 103-62).
     The Government Performance and Results Act (GPRA) was established to
     improve Government-wide program effectiveness, accountability, and,
     ultimately, public confidence by requiring agencies to identify measurable
     annual performance goals. In 1998, the cycle time for the Major Defense
     Acquisition Program (MDAP) was approved as a measurement for tracking
     performance under GPRA, Goal 2.4, Improve Acquisition. The milestone
     schedule information from the December 1996 Selected Acquisition Report
     (SAR) established the historic baseline of 132 months. The programs were
     separated into two groups: 58 programs that started before 1992 and
     48 programs that started after 1992, the year that DoD acquisition reform
     began.

     Acquisition cycle time for an individual program is defined as the period from
     formal initiation of an acquisition program milestone to the initial operating
     capability. In 1998, DoD established the goal to deliver new MDAPs to the
     field in 25 percent less time--less than 99 months--than programs initiated before
     1992. The key measure for that goal is the average time elapsed from program
     start to initial operational capability for all MDAPs in development. DoD
     computes the monthly cycle time for each MDAP program and combines
     individual cycle times to calculate the average cycle time for all programs. DoD
     reported that it met its FY 2000 goal of reducing the average cycle time for all
     MDAPs by 25 percent.

Objectives
     The overall objective was to evaluate the MDAP cycle time for tracking
     performance under GPRA as indicated in the FY 2000 Annual Report of the
     Secretary of Defense. Specifically, we assessed whether the process and
     factors, used to establish the metric goal of MDAP cycle time, were valid. See
     Appendix A for a discussion of the audit scope, methodology, and prior audit
     coverage.




                                         1
           Major Defense Acquisition Programs
             Cycle Time
           The database used to calculate MDAP acquisition cycle time for
           inclusion in the annual report to the President and the Congress, was not
           complete or accurate. We identified the following inconsistencies that
           occurred in 28 of 48 programs (some programs had multiple
           inaccuracies):

                •   20 programs had milestone dates that differed from SAR start
                    dates,

                •   6 programs had different low-rate initial production dates,

                •   5 programs had different initial operational capability dates, and

                •   12 programs had different cycle time calculations.

            In addition, three programs were not included in the database.
            Complete and accurate information was lacking because the Under
            Secretary of Defense for Acquisition, Technology, and Logistics
            (USD [AT&L]) did not have a process in place to verify information
            recorded in the database or to reconcile any discrepancies between the
            database and the SARs. As a result, MDAP cycle time information
            used in the Annual Report of the Secretary of Defense for FY 2000 and
            the Annual Report for FY 2001 may not accurately reflect the progress
            of achieving the MDAP cycle time goal.

Acquisition Performance Goal 2.4
    The typical acquisition effort of the 1960s required 7 years for completion. A
    review of MDAPs, using the 1996 SARs, found that major systems required
    11 years (132 months) to progress from program start to initial operational
    capability. In 1998, the MDAP cycle time was approved as a measurement for
    tracking performance under GPRA. DoD established the goal of delivering new
    MDAPs to the field in 25 percent less time (99 months) from the historic
    average (132 months). USD (AT&L) is responsible for monitoring the cost,
    schedule, and technical status of major weapon systems. In 1998, USD (AT&L)
    established a database to record current and historic schedule information for
    each MDAP. The database contained information used to calculate the average
    cycle time for all the MDAPs using program start dates and initial operational
    capability dates. Based on those calculations, USD (AT&L) computed an
    average cycle time of 96.9 months for 48 MDAPs, which were started after
    1992, and were reported in the FY 2000 Annual Report. The 96.9 monthly
    average cycle time showed that DoD exceeded its established goal by more than
    2 months.




                                        2
Database Analysis
    We could not verify whether DoD met GPRA MDAP cycle time goals because
    the data used to calculate MDAP cycle times were not accurate for all programs.
    We compared USD (AT&L) cycle time database against the December 31,
    1999, and June 30, 2000 SARs. The database contained numerous instances of
    missing or inaccurate information. Appendix B shows three MDAPs omitted
    from the database: C-130J Hercules, Maneuver Control System, and Secure
    Mobile Anti-Jam Reliable Tactical Terminal. Each program was started during
    or after 1992, had SARs prepared, and should have been included in the
    database.

    Appendix C lists eight programs in the database that used “To Be Determined”
    as an initial operational capability date. However, cycle times were calculated
    for four of the eight programs: Airborne Laser, Evolved Expendable Launch
    Vehicle, MILSTAR, and Space-Based Infrared System Program (High). We
    were unable to determine cycle times for those programs with no initial
    operational capability date.

    Appendix D shows 20 programs with milestone dates that differed from SAR
    start dates. For example, the database listed the Cooperative Engagement
    Capability Program with no date for Milestone I, yet the SAR showed
    May 1995 for Milestone I. Also, the ATACMS/BAT Program showed a
    Milestone II date of May 1999, although the SAR showed a Milestone II date of
    November 2000--a difference of 18 months. Appendix D also shows that six
    programs had different low-rate initial production dates between the database
    and the SARs and five programs with initial operational capability dates that
    differed from the SARs. For example, the Force XXI Battle Command Brigade
    and Below Program showed an initial operational capability date of April 2002
    although the SAR showed November 2001--a difference of 5 months.
    Additionally, Appendix D shows 12 programs each with a different cycle time
    calculation between the database and the SARs, such as the Advanced
    Amphibious Assault Vehicle Program.

Cycle Time Database
    USD AT&L) established the database to record DoD schedule information for
    all MDAPs and to determine cycle time for the programs. Information was
    collected manually from SARs and transferred to the database where it became
    the basis for determining the MDAP average cycle time, which was reported in
    the 2000 Annual Report and the draft of the 2001 Annual Report. However,
    USD (AT&L) did not have a process to review and verify the completeness and
    accuracy of the database, which resulted in omissions and inaccuracies in the
    data. An independent review of the information should be performed before it
    becomes part of another database or report.

    Based on information taken from the USD (AT&L) database, DoD reported that
    it had met its FY 2000 goal of reducing average cycle time by 25 percent. This


                                        3
     information was reported to the President and the Congress in the 2001 Annual
     Report, Appendix I, Government Performance and Results Act, DoD FY 2000
     Performance Report, March 2001. However, because programs were omitted
     and other discrepancies, the matrixes showing that the goal was reached may not
     accurately reflect the progress made toward achieving the cycle time goal. The
     DoD FY 2002 Annual Performance Plan, a part of Appendix I, will be
     published separately from the DoD FY 2000 Performance Report.

Actions Undertaken by the Office of the Under Secretary of
  Defense for Acquisition, Technology, and Logistics
     The USD (AT&L) agreed that data were omitted from the database and that
     other data were inconsistent with information in the SARs. As a result, a
     statement of work was issued for a contractor to examine and upgrade the
     database. The statement of work addressed the following tasks:

            •   Verify and reconcile Inspector General, DoD, discrepancies in the
                database for the DoD programs currently in development, and
                document rules for determining cycle time.

            •   Verify the accuracy of schedule data for the remaining programs in
                the database. (There are about 200 completed programs dating back
                to 1969.)

            •   Design a data table within the Consolidated Acquisition Reporting
                System and include data that will highlight any change in cost and
                schedule.

     As of December 2001, USD (AT&L) estimated that it will complete the
     verification and reconciliation of the database by February 2002.

Summary
     We could not verify whether DoD met the GPRA metric MDAP cycle time goal
     because the database used to calculate the average cycle time omitted programs
     and contained discrepancies. As a result, the average cycle time goal stated in
     the FY 2000 Annual Report of the Secretary of Defense may not be accurate. In
     addition, cycle times, which were calculated for the FY 2001 Annual Report,
     using information from the same database, may not be accurate. Because USD
     (AT&L) representatives took action to reconcile the MDAP database, we did not
     make a recommendation on that issue.




                                         4
Recommendations
    We recommend the Under Secretary of Defense for Acquisition, Technology,
    and Logistics establish a quality control process to periodically review and
    verify the completeness and accuracy of the MDAP cycle time database.

Management Comments
    The Under Secretary of Defense for Acquisition, Technology, and Logistics did
    not provide comments to the draft of this report, dated June 29, 2001.
    Accordingly, we request that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics provide comments to the final.




                                       5
Appendix A. Audit Process

Scope
    We evaluated DoD reporting against the MDAP cycle time performance goal of
    GPRA. Specifically, we reviewed Subordinate Performance Goal 2.4, Improve
    Acquisition, and Performance Measure 2.4.2, MDAP.

    Cycle Time. Management control objectives for acquisition program cost,
    schedule, and performance parameters are embodied in acquisition program
    baselines.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Weapons System Acquisition high-risk area.

Methodology
    Specifically, we reviewed MDAPs having start dates after 1992. We obtained a
    copy of the MDAP cycle time database identifying 48 programs and their
    respective cycle times from USD (AT&L). We reviewed the milestone
    schedules for the 51 MDAPs listed in the annual SARs to determine average
    cycle times for each of the programs. We recorded each of the MDAPs
    Milestone I, II, and III dates, low-rate initial production dates, and initial
    operational capability dates as reported in the SARs. We calculated the length
    of time elapsed between Milestone I or Milestone II (some MDAPs use
    Milestone I as a start date and others use Milestone II as a start date) and initial
    operational capability dates for each of the MDAPs listed in the SARs. Also,
    we compared the MDAP cycle time that we determined with the results
    calculated in the USD (AT&L) cycle time database. We reconciled the MDAPs
    in the USD (AT&L) database with the programs in the SARs.

    Audit Type, Dates, and Standards. We performed this program audit from
    January 2001 through June 2001 in accordance with generally accepted
    government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We did not rely on technical assistance to
    perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and contractor locations. Further details are available
    upon request.



                                         6
    Management Control Program Review. We did not review the management
    control program for GPRA Performance Measure 2.4.2 MDAP Cycle Time.
    We limited our review to the controls over the reliability of data taken from the
    Selected Acquisition Reports and recorded in the USD (AT&L) MDAP cycle
    time database. We found that these controls were not adequate.

    We identified a material control weakness as defined by DoD
    Instruction 5010.40. Controls were not adequate to ensure that data taken from
    the Selected Acquisition Reports and recorded in the USD (AT&L) MDAP
    cycle time database were correct and complete. Specifically, a quality control
    process was not established to periodically review the MDAP cycle time
    database for accurate and complete information. The recommendation, if
    implemented, will ensure adherence to regulatory requirements.



Prior Coverage
    General Accounting Office
    The General Accounting Office has conducted multiple reviews related to
    GPRA. Unrestricted General Accounting Office reports can be accessed over the
    Internet at http://www.gao.gov.

    Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-128, “Government Performance
    and Results Act Goals: Surge Sealift and Forces Supported by Land- and Sea-
    Based Pre-Positioning,” May 23, 2001

    Inspector General, DoD, Report No. D-2001-080, “Government Performance
    and Results Act Goals: Disposal of Excess Real Property,” March 15, 2001

    Inspector General, DoD, Report No. D-2001-045, “Government Performance
    and Results Act Goals: Tank Miles,” February 7, 2001

    Inspector General, DoD, Report No. D-2001-033, “Government Performance
    and Results Act: Unfunded Deport Maintenance Requirements,” January 12,
    2001

    Inspector General, DoD, Report No. D-2001-021, “Government Performance
    and Results Act Reporting on Defense Working Capital Funds Net Operating
    Results,” January 10, 2001

    Inspector General, DoD, Report No. D-2000-136, “Reporting of Performance
    Measures in the DoD Agency-Wide Financial Statements,” May 31, 2000




                                        7
Appendix B. Programs Omitted From
            Under Secretary of Defense for
            Acquisition, Technology, and
            Logistics Database
    Program Name                                       Date              Service            Cycle Time1
                                                                                            (in months)
    C130J Hercules                                     1996              Air Force             33

    Maneuver Control System                            1992              Army                  64

    Secure Mobile Anti-Jam Reliable
    Tactical-Terminal                                  1992              Army                  107




1
    Program start (MS I, MS II or MS III) to program initial operational capability date.


                                                       8
Appendix C. Programs with To Be Determined
            as Initial Operational Capability
            Date
Program Name                                           Date              Service            Cycle Time1
                                                                                            (in months)
Airborne Laser                                         1996              Air Force             1302

Evolved Expendable Launch Vehicle                      1996              Air Force             712

MILSTAR                                                1992              Air Force             1202

Space-Based Infrared System (High)                     1996              Air Force             1132

Interim Armored Vehicle                                2000              Army                    *3

Navy Theater Wide Ballistic Missile
Defense                                                1999              DoD                     *3

Space-Based Infrared System (Low)                      1999              Air Force               *3

Joint Strike Fighter                                   1996              DoD                     *3




1
    Program start (MS I, MS II or MS III) to program initial operational capability date.
2
    Programs had computed cycle time despite having "To Be Determined" as an initial operational
    capability date.
3
    Programs did not compute cycle time because "To Be Determined" was an initial operational capability
    date.



                                                       9
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Acquisition Initiatives)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committee and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Commerce on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Governmental Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Governmental Reform




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (Cont'd)
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         14
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector General, DoD, who contributed to the report are listed below.

   Mary L. Ugone
   John E. Meling
   Michael E. Simpson
   George A. Leighton
   Ronald L. Nickens
   Timothy J.Miller
   Trisha L. Staley
   Ann A. Ferrante




                                     15
